No.

 

IN THE

SUPREME COURT OF THE UNITED STATES

 

Roderick Perez-Gonzalez,
Petitioner,
v.
United States of America,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Raul S. Mariani-Franco
Counsel of Record

P.O. Box 9022864
San Juan, PR, 00902-2864
Tel.: (787) 620-0038
Fax: (787) 620-0039
Counsel of Record for Petitioner Roderick Perez-Gonzalez
COMES NOW, the Petitioner, represented by the undersigned counsel,
and before this Honorable Court respectfully requests to proceed in
forma pauperis, pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States. In support of this motion, the undersigned
respectfully states the following:

1. The Petitioner was determined to be indigent in the course of
criminal proceedings before the United States District Court for the
District of Puerto Rico and before the United States Court of Appeals
for the First Circuit Court. Petitioner has been represented by the
undersigned, pursuant to a Criminal Justice Act “CJA” appointment
since August 22, 2017.

2. The undersigned respectfully submits that his appointment
pursuant to the CJA and the corresponding determination of indigency
for Petitioner, exempts him from the payment of fees or costs, and from
the filing of an affidavit pursuant to 28 U.S.C. §1915(a).

WHEREFORE, it is respectfully requested that this High Court
grant the instant request to proceed in forma pauperis, and that this

Court accepts the tendered Petition for a Writ of Certiorari.
See: Certificate of Service included with Petition.
RESPECTFULLY SUBMITTED.

In San Juan, Puerto Rico, this 23"4 day of October, 2020

Raul S. Mariani Franco

USCA NO.: 48733

P.O. Box 9022864

San Juan Puerto Rico 00902-2864
Tel. 787-620-0038
